Department of Homeland Security
   Ofﬁce of Inspector General


            Immigration and Custom Enforcement 

              Detention Bedspace Management





OIG-09-52                                          April 2009
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3 


          Detention Space Management Plan Has Not Been Implemented.............................3 


          Continued Ad Hoc Use of Intergovernmental Service Agreements.........................3 


          Requirements Forecasting and Analysis...................................................................5 


          Potential Opportunities for Controlling Costs ..........................................................5 


Conclusion ...........................................................................................................................6 


Recommendations................................................................................................................6


Management Comments and OIG Analysis ........................................................................6 


Appendices
     Appendix A: Purpose, Scope and Methodology..........................................................9 

     Appendix B: Management Comments to the Draft Report .......................................11 

     Appendix C: FY 2007 ICE SBI-related Contract 

                 Actions in Excess of $20 Million.........................................................15 

     Appendix D: Major Contributors to this Report........................................................16 

     Appendix E: Report Distribution ..............................................................................17 


Abbreviations
     DRO                    Detention and Removal Operations 

     ICE                    Immigration and Customs Enforcement 

     SBI                    Secure Border Initiative 

     USCIS                  United States Citizenship and Immigration Services 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                We performed an audit of Immigration and Customs Enforcement
                (ICE) detention bedspace management. Our objective was to
                determine whether ICE is acquiring detention bedspace in a cost-
                effective manner. Appendix A provides details on our audit
                purpose, scope, and methodology.

                ICE has limited assurance that it is acquiring detention bedspace in
                a cost-effective manner. Its March 2007 plan for improving
                bedspace acquisition does not have the management priority
                needed to ensure its execution. The objective of the plan was to
                increase ICE use of larger, strategically located facilities, thereby
                increasing program consistency, improving conditions of
                confinement, and lowering detention costs. Because the plan has
                not been implemented, since fiscal year 2006 ICE has increased its
                reliance on ad hoc intergovernmental service agreements and has
                made limited use of alternative facilities and strategies for
                addressing detention bedspace requirements.

                We are making three recommendations that the Acting Assistant
                Secretary, Immigration and Customs Enforcement, update the plan
                for cost-effective acquisition of detention bedspace, establish
                adequate and effective financial and management controls, and
                improve data gathering and analysis capabilities. The agency
                concurred with our recommendations and in their response
                provided details on how they made a plan to make improvements.




                       ICE Detention Bedspace Management

                                    Page 1
Background
             ICE is the investigative arm of the department responsible for
             enforcing immigration laws. ICE’s Office of Detention and
             Removal Operations (DRO) is responsible for removing illegal
             aliens and, when appropriate, safely and securely detaining aliens
             pending removal. To accomplish this mission, ICE needs a
             sufficient number of safe, secure facilities compliant with national
             detention standards for the treatment and care of detainees.
             Detention bedspace acquisition is the largest single ICE
             expenditure, totaling more than $800 million annually. In fiscal
             year (FY) 2007, ICE received more than $1.4 billion in funding to
             support overall alien detention and removal operations.

             Since 2005, ICE has pursued a comprehensive interior
             enforcement strategy composed of concurrent efforts to identify
             and remove criminal aliens, fugitives, and other immigration
             violators; build worksite enforcement and compliance programs to
             deter illegal employment; and uproot criminal activities that
             support illegal immigration, such as human trafficking and
             fraudulent document preparation. The strategy focuses on ending
             the practice of “catch and release” of apprehended aliens.
             Whereas more than 113,000 aliens were released in FY 2005, by
             mid FY 2007 that number was nearly zero. Detaining versus
             releasing aliens increased the demand for detention bedspace.
             ICE reported an increase in its average daily detention population
             from more than 28,000 in FY 2007 to nearly 34,000 in FY 2008.

             ICE houses detainees in eight ICE-owned and operated service
             processing centers, seven contract detention facilities owned and
             operated by private-sector businesses on behalf of ICE, or more
             than 350 state and local government facilities through
             intergovernmental service agreements. These agreements provide
             housing for approximately 52% of the detainee population
             annually.

             In March 2007, ICE developed its National Detention Management
             Plan to address the demand for adequate bedspace to hold aliens
             while they are processed for removal. The plan focused on
             achieving a cost-effective mix of detention bedspace facilities by:

             �	     Expanding the use of existing service agreements to satisfy
                    immediate needs for more bedspace;




                    ICE Detention Bedspace Management

                                 Page 2
                �	     Transitioning to the use of larger, strategically located
                       facilities to better control detention conditions and to lower
                       costs; and

                �	     Developing information systems and forecasting models to
                       predict future detention requirements and the most cost-
                       effective means of acquiring detention services.

Results of Audit
     Detention Space Management Plan Has Not Been Implemented
                Since its publication in March 2007, ICE’s plan for cost-effectively
                acquiring detention bedspace has not been implemented.
                Enforcing immigration laws, including conducting work site
                enforcement, apprehending aliens, and uprooting criminal
                infrastructures for human trafficking and fraudulent document
                preparation, remains ICE’s priority. Obtaining the most cost-
                effective detention bedspace is a secondary activity in support of
                its mission.

                Further, given the recent emphasis on alien removal versus
                detention, the plan and its goals have become outdated.
                Specifically, to expedite the removal of aliens, ICE has focused on
                positioning detainees at facilities near removal locations,
                improving detainee access to immigration judges to adjudicate
                cases, and increasing the use of video teleconferencing with
                foreign consulates in the United States to establish agreements on
                alien deportation. The increased focus on removal versus
                detention may have reduced ICE’s attention to ensuring cost-
                effective acquisition of detention bedspace.


     Continued Ad Hoc Use of Intergovernmental Service Agreements
                ICE has continued to rely on ad hoc use of intergovernmental
                service agreements to meet increased detention bedspace
                requirements resulting from its expanded interior enforcement
                strategy. ICE has added more than 6,500 detention beds through
                the use of intergovernmental service agreements, a 32% increase
                since FY 2006. In contrast, ICE has made limited progress in its
                plan to move to increased use of contract detention facilities and
                service processing centers. Since FY 2006, only 250 additional
                beds were provided through contract detention facilities; none were
                provided through service processing centers. Using contract

                       ICE Detention Bedspace Management

                                    Page 3
detention facilities and service processing centers was expected to
improve program consistency and conditions of confinement while
also lowering costs.

Intergovernmental service agreements provide a comparatively
quick means of adding bedspace compared to contracting with
commercial detention facilities or constructing new government-
owned ones. However, without standards and controls for
intergovernmental service agreement use, ICE may be spending
more than it should for intergovernmental service agreement
detention bedspace and related services. For example:

�	     For the two months reviewed, the ICE DRO Boston Field
       Office made unauthorized payments of $2,400 per month
       for meals for 800 detainees in transit away from their
       assigned facilities. Detainee meal costs were included in
       the intergovernmental service agreement as part of the daily
       per diem rate. However, duplicate costs were incurred for
       box lunches for the detainees when they were escorted to
       various locations for court hearings or medical care.

�	     For two months, the ICE DRO Boston Field Office paid
       $140,837 for 3,889 hours of law enforcement overtime
       labor to local law enforcement agencies without calculating
       which portion of the time should have been charged at the
       normal pay rate. As a result, the Boston Field Office paid
       $34,000 in excess overtime charges.

�	     The ICE DRO Atlanta Field Office gave a local law
       enforcement agency several vehicles to transport ICE
       detainees. According to the service agreement, the Field
       Office would pay mileage costs for detainee transport, but
       included no provision for the transfer of vehicles.

�	     The intergovernmental service agreement with the Rolling
       Plains Jail and Detention Center in Haskell, TX, specified
       that detainee transportation costs would be paid according
       to the rate set by the General Services Administration. In
       contrast, several other counties were paying for services at
       rates other than those agreed to in the service agreement or
       set by the General Services Administration.




       ICE Detention Bedspace Management

                    Page 4
Requirements Forecasting and Analysis
                ICE has not followed through on its March 2007 plan to develop
                systems to improve its detention budget and expenditure data
                gathering and analysis capabilities. ICE planned to use the data to
                develop forecasting models for predicting future detention
                requirements, strengthening capacity planning, and determining the
                most cost-effective means of acquiring detainee housing and
                transportation services. However, ICE has made no significant
                progress in this regard.

                Such requirements forecasting and analysis could help ICE
                accommodate surges in its detainee population due to immigration
                enforcement operations. For example, an ICE DRO enforcement
                operation in San Francisco was expected to result in the
                apprehension of about 200 aliens. Existing detention space in the
                San Francisco area was inadequate or too costly to house the
                number of persons projected. San Francisco management had to
                make hasty contingency plans and move the aliens to a detention
                center hundreds of miles outside of the San Francisco area for case
                review. Such efforts disrupted enforcement operations and
                resulted in lost productivity and increased transportation costs.
                Until ICE conducts the needed analysis, it may be hampered in its
                flexibility to adjust detention bedspace arrangements in such
                instances to support mission operations.


     Potential Opportunities for Controlling Costs
                Without improved data gathering and analysis capabilities and
                forecasting models, ICE may be missing opportunities to control
                detention bedspace and transportation costs. For example, in
                FY 2007, the average intergovernmental service agreement
                bedspace cost was about $79 per unit per day, compared to an
                average of about $77 per unit per day in contract detention
                facilities. With an average daily detainee population of about
                17,000, the potential savings from acquiring bedspace through
                contract detention facilities versus intergovernmental service
                agreements would be more than $13 million annually. Until ICE
                updates its plan, including conducting the appropriate requirements
                forecasting and analysis, it may be missing opportunities to control
                costs or achieve savings and efficiencies in detention bedspace
                acquisition.




                       ICE Detention Bedspace Management

                                    Page 5
Conclusion
             ICE has not fully implemented its National Detention Management
             Plan, resulting in mixed progress in moving toward a more
             cost-effective strategy for acquiring detention bedspace. ICE has
             continued to rely on intergovernmental service agreements with
             local governments to meet immediate needs, as the plan calls for;
             however, weak controls resulted in unauthorized charges. ICE
             planned to use data to develop forecasting models for predicting
             future detention requirements, strengthening capacity planning,
             and determining the most cost-effective means of acquiring
             detainee housing and transportation services. However, ICE has
             made no significant progress in this regard. Without improved
             data gathering and analysis capabilities and forecasting models,
             ICE may be missing opportunities to control costs.


Recommendations
             We recommend that the Acting Assistant Secretary, Immigration
             and Customs Enforcement:

             Recommendation #1: Update the plan for cost-effective
             acquisition of detention bedspace to reflect the agency’s current
             emphasis on alien removal versus detention.

             Recommendation #2: Establish adequate and effective financial
             management controls to ensure that the agency is not paying more
             than it should for detention bedspace and related services.

             Recommendation #3: Improve data gathering and analysis
             capabilities to support forecasting of requirements and to
             determine the most cost-effective means of acquiring detention
             bedspace.

Management Comments and OIG Analysis
             We obtained written comments on a draft of the report from the
             Acting Assistant Secretary of ICE. We have included a copy of
             the comments in Appendix B.




                    ICE Detention Bedspace Management

                                 Page 6
ICE concurred with recommendation #1. ICE commented that
they will update the National Detention Management Plan to
include:

�	     New enforcement initiatives such as Secure Communities;
�	     A focus on overall cost-effective removal operation
       coupled with the use of detention bed space gained at a fair
       and reasonable cost;
�	     A balanced acquisition strategy to include both flexible
       intergovernmental service agreements and contract
       detention facilities with reduced guarantee minimums;
�	     Continued collaboration with the Office of Acquisition
       Management; and
�	     Optimal utilization of alternatives to detention.

ICE also commented that DRO will preserve the cycle time
decrease achieved in FY 2008 by focusing on effective alien
removal and the Office of Acquisition Management has embarked
on several initiatives to make the acquisition of bedspace more cost
effective. Other updates to the National Detention Management
Plan are also underway regarding intergovernmental service
agreements and unit cost and price analysis. We consider this
recommendation resolved but open until ICE provides us with
documentation that supports the implementation of the actions
planned.

ICE concurred with recommendation #2. ICE commented that
they are working to establish a robust Contract Officer Technical
Representative presence at detention facilities both to monitor
performance and to review invoices. ICE plans to recruit
26 Contract Officer Technical Representatives in FY 2009 to
improve contract monitoring and financial controls. ICE will
provide adequate and constructive training to their Contract Officer
Technical Representatives, in order to better equip them to
constructively review the bedspace invoices received from its
intergovernmental service agreements. This will ensure the agency
pays only for the services received. Also, the contracting officer
will be involved in any case where there is an issue on proper
payment amounts. We consider this recommendation resolved but
open until ICE provides us with documentation that supports the
implementation of the actions planned.

ICE concurred with recommendation #3. ICE stated that it had
already begun to implement this recommendation as evidenced by


       ICE Detention Bedspace Management

                    Page 7
its implementation of the Integrated Decision Support system in
August 2008. DRO’s analysts combine the qualitative information
drawn from monthly capacity planning meetings with the
quantitative information the Integrated Decision Support system
generates, in an effort to make arrest and detention forecasts. Also,
DRO will conduct annual cost data analyses of facility daily rates
and related services. These cost data analyses can then be
incorporated into current bedspace forecasts and evaluation models
to more accurately forecast budget needs and facilitate cost-based
decision making. We consider this recommendation resolved but
open until ICE provides us with documentation that supports the
implementation of the actions taken or planned.




       ICE Detention Bedspace Management

                    Page 8
Appendix A
Purpose, Scope, and Methodology

                   This report provides the results of our work to determine whether
                   ICE is acquiring detention bedspace in a cost-effective manner.
                   We initiated this review in response to the FY 2007 Homeland
                   Security Appropriations Conference Report, which directed the
                   Inspector General to review and report on Secure Border Initiative
                   (SBI) contract actions in excess of $20 million. We examined
                   SBI-related contract actions at Immigration and Customs
                   Enforcement (ICE) and United States Citizenship and Immigration
                   Services (USCIS). We identified three contract actions at ICE,
                   collectively totaling more than $71 million, and none at USCIS
                   meeting the criteria. The ICE contract actions were for operations,
                   not capital investment programs. Appendix C provides details on
                   the three contract actions. Of the three, we reviewed one contract
                   action related to ICE detention bedspace management. Bedspace
                   management is the largest single ICE expenditure, which totals
                   more than $800 million annually.

                   We conducted interviews with key ICE DRO personnel, including
                   the Acting Director, Assistant Director of Field Operations,
                   Assistant Director of Management, Deputy Assistant Director of
                   Mission Support, Deputy Assistant Director of Detention
                   Management, Chief of Budget Formulation/Execution, Chief of
                   Detention Planning and Acquisition, Chief of Flight Operations,
                   Chief of Detention Management and Planning, Field Office
                   Directors, Assistant Field Office Directors, Head Contracting
                   Authority, contracting officers, and contract specialists.

                   We obtained and reviewed documentation such as ICE DRO’s
                   National Detention Management Plan and the National Capacity
                   Expansion Needs Assessment. We also obtained and reviewed
                   intergovernmental service agreements, detainee population
                   distribution reports, budget formulation and execution data,
                   bedspace cost data, and invoices for services rendered.

                   We analyzed data from the Federal Procurement Data System for
                   FY 2006 and FY 2007 in order to identify SBI-related contract
                   actions in excess of $20 million. Regarding detention bedspace
                   management, we reviewed specific contracts, intergovernmental
                   service agreements, and financial data from the beginning of
                   FY 2007 through February 2008. We conducted analyses to
                   determine whether there were significant differences in bedspace
                   costs among service processing centers, contract detention
                   facilities, and intergovernmental service agreements. We reviewed
                   supporting documentation provided by DRO management to



                          ICE Detention Bedspace Management

                                       Page 9
Appendix A
Purpose, Scope, and Methodology

                   determine whether charges that DRO paid agreed with services
                   rendered.

                   We conducted fieldwork at ICE Headquarters in Washington, DC,
                   and DRO field offices in Atlanta, GA; Boston, MA; Chicago, IL;
                   Dallas and El Paso, TX; Oakdale, LA; and San Francisco, CA.

                   We conducted our fieldwork between April 2007 and June 2008
                   according to generally accepted government auditing standards.
                   Those standards require that we plan and perform the audit to
                   obtain sufficient, appropriate evidence to provide a reasonable
                   basis for our findings and conclusions based on our audit objective.
                   We believe that the evidence obtained provides a reasonable basis
                   for our findings and conclusions based on our audit objectives.




                          ICE Detention Bedspace Management

                                       Page 10
Appendix B
Management Comments to the Draft Report




                        ICE Detention Bedspace Management 


                                     Page 11

Appendix B
Management Comments to the Draft Report




                        ICE Detention Bedspace Management 


                                     Page 12

Appendix B
Management Comments to the Draft Report




                        ICE Detention Bedspace Management 


                                     Page 13

Appendix B
Management Comments to the Draft Report




                        ICE Detention Bedspace Management 


                                     Page 14

Appendix C
FY 2007 ICE SBI-related Contract Actions in Excess of $20 Million



                                                                                      Contract
 Contract Action                                  Contract Action       Effective   Action Dollar
 Number               Vendor Name                 Description             Date        Amount


 HSCEOP-07-J-00302    Corrections Corporation     Detention, Wages,
 Modification #1      of America                  Meals, and Mileage    4/20/07       $21,840,798

                      DELL Marketing Limited      Microsoft Desktops
 HSCEOP-07-F-CL0380   Partnership                 and Server Software   6/27/07       $23,923,859

                      Science Applications        Information Support
 HSCEOP-07-J-00537    International Corporation   Services              6/29/07       $25,804,782


                                                  Total                               $71,569,439




                             ICE Detention Bedspace Management 


                                           Page 15

Appendix D
Major Contributors to this Report


                    Phillip Maulden, Director
                    Cheryl Jones, Audit Manager
                    Gary Wilk, Auditor in Charge
                    Sharleda Davis, Auditor
                    Armando Lastra, Auditor
                    Edwin Soto, Analyst
                    Sue Vernier, Auditor
                    Marissa Weinshel, Analyst
                    James Bess, Referencer




                          ICE Detention Bedspace Management 


                                       Page 16

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Assistant Secretary, Immigration and Customs Enforcement
                      Director, United States Citizenship and Immigration Services
                      DHS Audit Liaison
                      ICE Audit Liaison
                      CIS Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                             ICE Detention Bedspace Management 


                                          Page 17

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
